          Office of Inspector General




March 23, 2006

AL INIGUEZ
VICE PRESIDENT, PACIFIC AREA OPERATIONS

SUBJECT: Audit Report – Mail Transport Equipment Service Center Network –
         Highway Transportation Routes – San Francisco
         (Report Number NL-AR-06-003)

This is one in a series of reports that presents results from our self-initiated nationwide
audit of the mail transport equipment service center (MTESC) network (Project Number
04YG003NL005).

The objectives of our audit were to determine whether audit recommendations from our
report, Mail Transport Equipment Service Center Decision Analysis Report,
Performance and Financial Benefit (Report Number TR-AR-01-003, dated
May 4, 2001), were implemented and whether there were additional opportunities to
save money. The report, initiated in response to a Board of Governors request,
concluded the network would not achieve the financial benefits anticipated by the
1997 Decision Analysis Report. We recommended, in part, that management reduce
cost by analyzing transportation requirements and other costs associated with the
network.

This follow-up report focuses on whether there were opportunities for the U.S. Postal
Service to save money by reducing the number of highway round-trips originating at the
San Francisco MTESC. The San Francisco MTESC provides service to San Francisco,
Oakland, Sacramento, and other geographical locations in the Postal Service’s Pacific
Area.

We concluded the Postal Service could save approximately $968,386 over the term of
existing contracts by canceling, not renewing, or modifying 77 round trips originating at
the San Francisco MTESC. The trips could be eliminated without affecting customer
service by consolidating loads to more fully utilize trailer capacity and by stopping the
inappropriate shipment of serviceable over-the-road containers. Further, we concluded
that during 2004 and 2005, the Postal Service may have missed an opportunity to save
an additional $123,254 because management did not comply with the Postal Service’s
over-the-road container processing policy. These amounts represent funds put to better
use and questioned costs and will be reported as such in our Semiannual Report to
Congress.
Management agreed with our recommendations. They agreed to eliminate 52 round
trips by February 25, 2006, and agreed with the estimated annual savings of $471,890
associated with those trips. Management also agreed to eliminate six trips and
reevaluate the need for additional 10 trips by April 1, 2006, when they will provide an
update of the annual savings. Further, management agreed to review the remaining
nine recommended trip reductions in July 2006 to determine whether they can be
eliminated without impacting service. Management’s comments and our evaluation of
these comments are included in the report.

The U.S. Postal Service Office of Inspector General (OIG) considers
recommendations 1, 2, and 3 significant, and therefore requires OIG concurrence
before closure. Consequently, the OIG requests written confirmation when corrective
actions are completed. These recommendations should not be closed in the follow-up
tracking system until the OIG provides written confirmation that the recommendations
can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Joe Oliva,
director, Transportation, or me at (703) 248-2300.


 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Paul E. Vogel
    Anthony M. Pajunas
    Dana L. Austin
    Diane M. Guiuan
    Ronald L. Washington
    Steven R. Phelps
Mail Transport Equipment Service Center Network –                               NL-AR-06-003
 Highway Transportation Routes – San Francisco



                                      INTRODUCTION
Background                     The mail transport equipment service center (MTESC)
                               network is a system of 22 contractor-operated service
                               centers designed to supply mailbags, carts, hampers, and
                               other mail transport equipment to mail processing facilities
                               nationwide. The service centers deliver equipment to users
                               with dedicated transportation.

                               The original plan to create the network was presented to the
                               U.S. Postal Service Board of Governors (BOG) in the
                               Decision Analysis Report (DAR), Mail Transport Equipment
                               Service Center Network, dated May 13, 1997. The DAR
                               forecast costs exceeding $3.6 billion over 10 years and the
                               BOG approved it in June 1997. The new network became
                               fully operational in January 2000. From the outset, the new
                               network was troubled by allegations of poor performance
                               and excessive costs. As a result, the BOG asked the U.S.
                               Postal Service Office of Inspector General (OIG) to evaluate
                               the program.


 The MTESC Network has
        dedicated
     transportation.

   Our 2001 audit report
   identified $1 billion in
       potential MTE
    transportation cost
         overruns.

This MTE tractor-trailer was
     photographed in
  January 2005 near the
 San Francisco Bulk Mail
      Center (BMC).




                               Our audit report, Mail Transport Equipment Service Center
                               Decision Analysis Report, Performance and Financial
                               Benefit (Report Number TR-AR-01-003, dated
                               May 4, 2001), concluded the network would not achieve
                               the financial benefits anticipated by the DAR. We
                               recommended, in part, that management reduce cost by
                               analyzing transportation requirements and related costs
                               associated with the network.



                                                    1
Mail Transport Equipment Service Center Network –                                NL-AR-06-003
 Highway Transportation Routes – San Francisco




                              Postal Service Headquarters implemented our
                              recommendation and is aggressively pursuing opportunities
                              to reduce MTESC network costs. Network Operations
                              Management transportation assessment teams,
                              supplemented by area personnel, are currently analyzing
                              network transportation costs in order to reduce operating
                              expense and improve efficiency.




 The MTESC network is a
 system of 22 contractor
 operated service centers
   designed to supply
    equipment to mail
   processing facilities
       nationwide.

    Photograph of the
  San Francisco MTESC,
      January 2005.




Objectives, Scope,            This audit is a follow-up to our May 4, 2001, report. Our
and Methodology               objectives were to determine if management implemented
                              our recommendations and whether there were additional
                              opportunities to save money. This report focuses on
                              San Francisco MTESC transportation requirements. The
                              San Francisco MTESC provides service to mail processing
                              facilities in San Francisco, Oakland, Sacramento, and other
                              geographical locations in the Postal Service’s Pacific Area.

                              During our work, we interviewed Postal Service
                              Headquarters officials in Network Operations Management
                              and Supply Management. We also interviewed officials,
                              managers, and employees in the Pacific Area and at the
                              San Francisco MTESC.

                              We used Postal Service computer-generated data to
                              determine trip dispatch, arrival, and load efficiency; and to
                              identify potential trips for consolidation or elimination. We


                                                    2
Mail Transport Equipment Service Center Network –                              NL-AR-06-003
 Highway Transportation Routes – San Francisco



                              observed and photographed operations and examined
                              applicable Postal Service policies, procedures, and
                              directives. We consulted with statisticians and other
                              subject-matter experts. We also discussed our
                              observations and conclusions with management officials
                              and included their comments where appropriate. We
                              performed our work in close coordination with the Network
                              Operations Management transportation assessment team
                              and area personnel.

                              We performed a site visit at the San Francisco MTESC from
                              January 10 through 14, 2005. We provided preliminary
                              results to area officials on January 19, 2005, and to
                              headquarters’ officials January 26, 2005. The Network
                              Operations Management transportation assessment team
                              performed a follow-up review of the San Francisco MTESC
                              the week of February 1, 2005, and identified similar
                              opportunities for significant trip reductions. We performed
                              additional analytical work and coordination with area
                              personnel through November 2005.

                              We conducted work associated with this report from
                              January 2005 through March 2006 in accordance with
                              generally accepted government auditing standards and
                              included tests of internal controls considered necessary
                              under the circumstances.

Data Limitations              During our audit, we examined computer data in
                              management’s Mail Transport Equipment Support System.
                              We did not audit or comprehensively validate the data;
                              however, we noted several control weaknesses that
                              constrained our work. For example, the system had missing
                              records and inaccurate trailer load volumes. Even though
                              data limitations constrained our work, we were able to
                              partially compensate by applying alternate audit procedures,
                              including source document examination, observation,
                              physical inspection, and discussion with responsible
                              officials. We also applied conservative principles to our
                              monetary impact estimates and, accordingly, always
                              selected the most restrained assessment.

Prior Audit Coverage          Our report, Mail Transport Equipment Service Center
                              Network – Equipment Processing (Report Number NL-AR-
                              05-006, dated March 31, 2005), concluded the Postal


                                                    3
Mail Transport Equipment Service Center Network –                                NL-AR-06-003
 Highway Transportation Routes – San Francisco



                              Service saved more than $7.2 million in processing costs
                              from March 2002 through September 2004, in part because
                              headquarters took aggressive and positive action in
                              response to OIG recommendations. (See Appendix A.)
                              Our report also concluded the Postal Service missed an
                              opportunity to save an additional $1.4 million because all
                              mail processing facilities did not quickly comply with
                              headquarters’ implementing instructions, and could still save
                              $628,000 over the next 2 years if all facilities implement
                              headquarters’ policy. We recommended management
                              reemphasize over-the-road (OTR) container processing
                              policy. Management agreed with our recommendation and
                              issued additional instructions on March 23, 2005. (See
                              Appendix B.)

                              Our report, Mail Transport Equipment Service Center
                              Network – Highway Transportation Routes – New York
                              Metro Area (Report Number NL-AR-05-014, dated
                              September 28, 2005), concluded the Postal Service could
                              avoid costs totaling approximately $741,000 over the term
                              of existing contracts by eliminating 49 round trips originating
                              at the Long Island MTESC. The Postal Service could
                              eliminate trips without affecting customer service by
                              consolidating loads to more fully utilize trailer capacity and
                              by stopping the inappropriate shipment of serviceable OTR
                              containers. Further, we concluded that during 2004 and
                              2005, the Postal Service may have missed an opportunity to
                              save about $285,000 because management did not comply
                              with the Postal Service OTR container processing policy.
                              We recommended Postal Service evaluate the 49 trips we
                              proposed for termination, terminate the trips, or document
                              the reasons for retaining the trips. Management agreed
                              with our recommendation.




                                                    4
Mail Transport Equipment Service Center Network –                                  NL-AR-06-003
 Highway Transportation Routes – San Francisco



                                           AUDIT RESULTS
 Highway Contract                   The Postal Service could save approximately $968,386
 Management                         over the term of existing San Francisco MTESC highway
                                    contracts by canceling, not renewing, or modifying
                                    77 unnecessary round trips. Further, the Postal Service
                                    may have missed an opportunity to save an additional
                                    $123,254 because the San Francisco BMC did not comply
                                    with the OTR container processing policy. The affected
                                    trips originated from and returned to the San Francisco
                                    MTESC.

                                    Postal Service policy requires transportation managers to
                                    balance service and cost and precludes managers from
                                    sending serviceable OTR containers to equipment service
                                    centers. The Postal Service could eliminate the 77 trips
                                    without affecting service because:

                                       •    Some trailer loads were not optimized and equipment
                                            could be consolidated on other trips.

                                       •    Some trips were scheduled primarily to return
                                            serviceable OTR containers the San Francisco BMC
                                            inappropriately sent to the MTESC.




         The interior of an
   underutilized trailer arriving
  at the San Francisco MTESC,
        January 12, 2005.




                                    The Postal Service could attain savings by not renewing
                                    unnecessary trips scheduled to expire within 1 year, or by
                                    canceling unnecessary trips currently contracted to continue
                                    beyond 1 year. See Figure 1 on the following page.


                                                    5
Mail Transport Equipment Service Center Network –                                      NL-AR-06-003
 Highway Transportation Routes – San Francisco




                                            PROPOSED NONRENEWALS AND CANCELLATIONS
                                                  BY REMAINING CONTRACT TERM

                                           TRIP               AFFECTED      NUMBER      ESTIMATED
                                         CATEGORY               TRIPS       OF TRIPS     SAVINGS

                                  Contracts expiring within
                                  1 year                       16 percent     12         $361,642

                                  Contracts with more than
                                  1 year remaining             84 percent     65         $606,744

                                  All terminated trips        100 percent     77         $968,386

                                                                Figure 1


 Cooperative Effort              As a result of our continuing efforts to partner with and bring
                                 value to the Postal Service, we had ongoing communication
                                 with Pacific Area officials throughout our audit. We provided
                                 the Pacific Area officials with a list of our specific trip
                                 proposals and the officials reviewed each proposal in

    These serviceable OTR
  containers were prepared for
        shipment to the
   San Francisco MTESC on
       January 12, 2005.
      Postal Service policy
   precludes serviceable OTR
     containers from being
  returned to the MTESC. The
   policy stipulates that only
   containers requiring repair
       are to be returned.
    Trips scheduled to return
   serviceable containers are
    not needed and result in
   unnecessary expenditures.




                                 conjunction with their own assessment of area-wide network
                                 requirements. After the area’s review, we discussed our
                                 proposals and area operational needs with area officials and
                                 made appropriate adjustments. As a result of our
                                 cooperative effort, the area agreed with the 52 proposals
                                 outlined in Appendices C and D and agreed to reassess the
                                 25 trips listed in Appendix E, which managers feel are still
                                 necessary.



                                                    6
   Mail Transport Equipment Service Center Network –                                    NL-AR-06-003
    Highway Transportation Routes – San Francisco




                                   In 15 of the 25 cases where managers felt the trips were still
                                   necessary, officials explained that the trips were needed to
                                   return serviceable OTR containers the San Francisco BMC
                                   sent to the MTESC. However, the Postal Service’s
                                   March 2002 policy states that serviceable OTR containers
                                   are to remain exclusively within the BMC network and only
                                   containers requiring repair are to be shipped to service
                                   centers. (See Appendices A and B.) Our trip cancellation
                                   proposals are summarized below:

                                                           PROPOSED TRIP ELIMINATIONS
 Area position conflicts                                    BY ELIMINATION CATEGORY
  with Postal Service
                                              ELIMINATION            NUMBER
        policy.                                CATEGORY              OF TRIPS   APPENDIX   SAVINGS
(See Appendices A & B.)
                                      Postal Service identified
                                      trip cancellations or
                                      modification during the
                                      audit.                            21          C       $400,427

                                      Proposed trip
                                      eliminations with which
                                      area officials agreed.            31          D       $432,538

                                      Proposals with which
                                      managers disagreed.               10          E        $67,231

                                      Trips officials felt were
                                      needed to return
                                      serviceable OTR
                                      containers.                       15          E        $68,190

                                      Total                             77                  $968,386

                                                                    Figure 2

                                   During our on-site inspection from January 10 through 14,
                                   2005, we inspected 133 incoming OTR containers to
                                   determine compliance with Postal Service policy. Only
                                   eight required repair while 125 were serviceable and had
                                   been inappropriately shipped to the MTESC for storage and
                                   reissue.

                                   Our examination of Postal Service records indicated that
                                   from January 1, 2004, through October 13, 2005, the
                                   San Francisco MTESC operated at least 2,004 trips to
                                   return OTR containers the San Francisco BMC
                                   inappropriately sent to the MTESC. As a result, the Postal



                                                       7
Mail Transport Equipment Service Center Network –                                        NL-AR-06-003
 Highway Transportation Routes – San Francisco



                                Service may have missed an opportunity to save more than
                                $123,000 because the BMC did not comply with
                                headquarters OTR container policy. See Figure 3 below.

                                UNNEEDED COST OF SHIPPING SERVICEABLE OTR CONTAINERS FROM
                                    THE SAN FRANCISCO BMC TO THE SAN FRANCISCO MTESC

                                                         Number of         Cost Per    Missed Savings
                                     Time Period        Round Trips       Round Trip    Opportunity

                                   January 1, 2004
                                      through
                                    June 30, 2005           1,621          $59.59700       $96,607

                                   January 1, 2004
                                      through
                                    June 30, 2005             51          $104.41064        $5,325

                                     July 1, 2005
                                       through
                                   October 13, 2005          285           $56.82523       $16,195

                                     July 1, 2005
                                       through
                                   October 13, 2005           47          $109.08436        $5,127

                                        Total               2,004                         $123,254
                                                                    Figure 3


                                Although Network Operations Management officials
                                continually strive to optimize transportation with aggressive
                                cost-cutting efforts such as their MTESC network cost and
                                efficiency assessments, transportation requirements are
                                dynamic and constantly change. We discussed each of the
                                suggested trip eliminations with area officials and
                                reconsidered their service requirements.

                                Based on our examination of scheduled shipments and our
                                physical examination of trailer utilization for the proposed
                                trip eliminations, we continue to believe the potential for trip
                                cancellation and savings exists, without jeopardizing service
                                or operational flexibility.

 Recommendation                 We recommend the vice president, Pacific Area Operations:

                                1. Verify the actual cancellation, modification, or
                                   substitution of the 21 trips management identified during
                                   our audit.




                                                    8
Mail Transport Equipment Service Center Network –                               NL-AR-06-003
 Highway Transportation Routes – San Francisco




 Recommendation                 We recommend the vice president, Pacific Area Operations:

                                2. Verify the actual cancellation, modification, or
                                   substitution of the 31 trips with which Postal Service
                                   managers agreed and provide the date action was
                                   taken.

 Management’s                   Management agreed with recommendations 1 and 2 and
 Comments                       the estimated savings, and stated they would make the
                                proposed trip reductions by February 25, 2006.

 Recommendation                 We recommend the vice president, Pacific Area Operations:

                                3. Reassess the 25 trips which Postal Service managers
                                   still feel are necessary and cancel or modify the trips as
                                   indicated by the reassessment or document the reasons
                                   for retaining the trips.

 Management’s                   Management agreed to eliminate six trips and reevaluate
 Comments                       the need for an additional 10 trips by April 1, 2006, when
                                they will provide an update of the annual savings. Further,
                                management agreed to review the remaining
                                nine recommended trip reductions by July 2006 to
                                determine whether they can be eliminated without impacting
                                service.

 Evaluation of                  Management’s comments are responsive to our findings
 Management’s                   and recommendations 1, 2, and 3. We consider
 Comments                       management’s actions, taken or planned, sufficient to
                                address the recommendations we made in our report.




                                                    9
Mail Transport Equipment Service Center Network –        NL-AR-06-003
 Highway Transportation Routes – San Francisco



              APPENDIX A. OTR CONTAINER POLICY LETTER




                                                    10
Mail Transport Equipment Service Center Network –        NL-AR-06-003
 Highway Transportation Routes – San Francisco



                                         APPENDIX B

 REEMPHASIS OF OVER-THE-ROAD CONTAINER POLICY LETTER




                                                    11
Mail Transport Equipment Service Center Network –                                                  NL-AR-06-003
 Highway Transportation Routes – San Francisco



                       APPENDIX C. TRIP ANALYSIS DETAIL
      TRIPS IDENTIFIED BY POSTAL SERVICE MANAGERS DURING AUDIT WORK
                                                                                        OIG Proposed
                                                                                           Weekly         Total
Highway                                                                                    Round        Projected
Contract                                                                                    Trip       Savings On
 Route                     Destination Point                      Contract Term         Eliminations    Contract
 948AK         San Jose Processing and Distribution Center                                   8          $123,387
 948AK                  Burke Street Warehouse                                               5          $ 33,351
                          TOTALS FOR 948AK                     06/14/2005 – 6/13/2007        13         $156,738

 948CK         Stockton Processing and Distribution Center                                   3          $ 86,519
 948CK         Marysville Processing and Distribution Center                                 5          $157,170
                           TOTAL FOR 948CK                     05/29/2004-05/26/2006         8          $243,689

             TOTAL IDENTIFIED BY MANAGEMENT                                                 21         $400,427




                                                                12
Mail Transport Equipment Service Center Network –                                                     NL-AR-06-003
 Highway Transportation Routes – San Francisco




                    APPENDIX D. TRIP ANALYSIS DETAIL
     PROPOSED TRIPS POSTAL SERVICE MANAGEMENT AGREED TO ELIMINATE

                                                                                           OIG
                                                                                        Proposed            Total
Highway                                                                                   Weekly          Projected
Contract                                                                               Round Trip         Savings
 Route                      Destination Point                    Contract Term         Eliminations      on Contract
  948AK        North Bay Processing and Distribution Center                                 5             $ 54, 707
  948AK         Fresno Processing and Distribution Center                                   2             $100,977
  948AK        Oakland Processing and Distribution Center                                  12             $ 61,694
  948AK        San Jose Processing and Distribution Center                                 4              $ 61,694
  948AK         San Francisco International Service Center                                  1             $ 8,305
  948AK               San Francisco Air Mail Center                                         2              $ 17,453
  948AK           San Francisco Mail Processing Annex                                       1              $ 9,755
                     TOTAL AGREED TO FOR 948AK                 06/14/2005-06/13/2007       27             $314,585

  948CK        Marysville Processing and Distribution Center                                1              $31,434
  948CK        Stockton Processing and Distribution Center                                  3              $86,519
                     TOTAL AGREED TO FOR 948CK                 05/29/2004-05/26/2006        4             $117,953


             TOTAL AGREED TO BY MANAGEMENT                                                 31            $432,538




                                                                 13
 Mail Transport Equipment Service Center Network –                                                  NL-AR-06-003
  Highway Transportation Routes – San Francisco




                          APPENDIX E. TRIP ANALYSIS DETAIL
            PROPOSED ELIMINATIONS POSTAL SERVICE MANAGEMENT DISAGREED

                                                                                              OIG
                                                                                           Proposed
                                                                                             Weekly         Total
Highway                                                                                      Round        Projected
Contract                                                                                      Trip       Savings On
 Route                       Destination Point                        Contract Term       Eliminations    Contract
 948AK        San Francisco Processing and Distribution Center                                10           $67,231
                            TOTAL FOR 948AK                      06/14/2005 – 6/13/2007       10           $67,231

 948BK                       San Francisco BMC                                                15           $68,190
                        TOTAL FOR 948BK (OTRs)                   07/01/2005- 06/30/2007       15           $68,190


           TOTAL DISAGREED TO BY MANAGEMENT                                                   25         $135,421




                                                                 14
Mail Transport Equipment Service Center Network –        NL-AR-06-003
 Highway Transportation Routes – San Francisco




                 APPENDIX F. MANAGEMENT’S COMMENTS




                                                    15
Mail Transport Equipment Service Center Network –        NL-AR-06-003
 Highway Transportation Routes – San Francisco




                                                    16
